<html>
<title> - HEARING ON WOMEN'S EDUCATION: PROMOTING DEVELOPMENT, COUNTERING RADICALISM; AND MARKUP OF H.R. 3583, MALALA YOUSAFZAI SCHOLARSHIP ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                HEARING ON WOMEN'S EDUCATION: PROMOTING
                DEVELOPMENT, COUNTERING RADICALISM; AND
                 MARKUP OF H.R. 3583, MALALA YOUSAFZAI
                            SCHOLARSHIP ACT
=======================================================================

                                CONVENED

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-165

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______





                  U.S. GOVERNMENT PRINTING OFFICE
87-428                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           HEARING WITNESSES

Hedieh Mirahmadi, Ph.D., president, World Organization for 
  Resource Development and Education.............................     5
Ms. Humera Khan, executive director, Muflehun....................    19
Kathleen Kuehnast, Ph.D., director, Gender and Peacebuilding 
  Center, United States Institute of Peace.......................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

Hedieh Mirahmadi, Ph.D.: Prepared statement......................     7
Ms. Humera Khan: Prepared statement..............................    21
Kathleen Kuehnast, Ph.D.: Prepared statement.....................    31

                               MARKUP OF

H.R. 3583, To expand the number of scholarships available to 
  Pakistani women under the Merit and Needs-Based Scholarship 
  Program........................................................    59
  Amendment in the nature of a substitute to H.R. 3583 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................    67
      Amendment to the amendment in the nature of a substitute to 
        H.R. 3583 offered by the Honorable Gerald E. Connolly, a 
        Representative in Congress from the Commonwealth of 
        Virginia.................................................    74
      Amendment to the amendment in the nature of a substitute to 
        H.R. 3583 offered by the Honorable Lois Frankel, a 
        Representative in Congress from the State of Florida.....    79

                                APPENDIX

Hearing and markup notice........................................    82
Hearing minutes..................................................    83
Markup minutes...................................................    85
Markup summary...................................................    87
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    88


                     HEARING ON WOMEN'S EDUCATION:


                   PROMOTING DEVELOPMENT, COUNTERING


                  RADICALISM; AND MARKUP OF H.R. 3583,



                    MALALA YOUSAFZAI SCHOLARSHIP ACT

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. Today we 
are privileged to hear from three scholars on the topic of 
women's education and how a failure to appreciate its 
importance can result in missed opportunities for development 
and missed opportunities in terms of countering radicalism.
    I remember my experience with a small school for a while. 
My wife and I served on the board of this school in Afghanistan 
and we had been asked all through those troubled years--this 
was before 9/11--to assist with this school for orphans.
    It was in Kabul, and after the government changed after 9/
11 I had an opportunity to go visit the school, and I well 
remember the feeling I had.
    I could--they were in a building that, you know, obviously, 
needed a lot of work but the students you could hear them 
citing--you know, going through their lesson plan and one of 
the classes was in English.
    The boys were on one side of the room and the girls were on 
the other, and the headmaster there asked me if I would like to 
ask any questions, and I remember asking specifically what 
these young people wanted to do when they grew up. A boy stood 
up and said he wanted to become an engineer.
    But a girl stood up and said, I want to become a physician, 
and I said really, tell me, you know, what you would like to 
do. She said, I want to go to Kabul University. I want to 
become a doctor to help my people.
    It was a reminder to look at those orphan children and see 
them being prepared but realizing how ill prepared most of the 
population was, going through those turbulent times of war.
    Well, following today's hearing we are going to do a markup 
but we want to hear from our witnesses first. The markup is 
going to be on H.R. 3583, the Malala Yousafzai Scholarship Act, 
and what this important legislation will do is require USAID to 
award at least half of its scholarships in Pakistan to women 
and, of course, Malala Yousafzai, a Pakistani, is the 2014 
Nobel Peace Prize nominee who has been recognized for her 
courageous efforts to advance access to education for women and 
girls in that part of the world.
    I also want to recognize the Pakistani-American community 
which has worked so hard from here in the United States to 
promote the education of safety and women--of women and girls 
by establishing and supporting schools. They also do a lot to 
support the medical schools in Pakistan, to support the 
orphanages and other medical centers and key institutions in 
Pakistan.
    Despite a general expansion of educational opportunities 
around the world in the last 30 years, women in most developing 
countries on average still receive far less schooling than men, 
as we will hear from our witnesses today. In some countries 
like Pakistan this difference is quite pronounced with only 
about 40 percent of women over the age of 15 considered 
literate--40 percent for women, 70 percent for men. In 
Afghanistan, however, it is as few as 13 percent of women that 
are able to read and write. Today, we hope, as children are 
graduated out of school we are going to see that percentage 
increase markedly. But as you will hear today, there is strong 
evidence that the education of women and girls, of course, 
promotes economic growth, it increases life expectancy, it 
promotes childhood development.
    There is no doubt that educating women improves a country's 
economy as educated women are more likely, obviously, to be 
able to contribute to the labor force. But the correlation 
between a rise in women's education and per capita income has 
been absolutely proven.
    An increase in a woman's earning potential benefits her 
family. Studies have shown that women tend to invest more in 
their children than men, which is why increases in female 
income improve child survival rate some 20 times more than 
increases in male income. Women who can read also stand to 
benefit from the pamphlets distributed in public awareness 
campaigns and have been shown to better understand radio 
broadcasts designed to keep them informed.
    Pakistan is an area of our concern here. Unfortunately, it 
is an area of our concern because of extremist groups that are 
indoctrinating youth by the thousands, and to offset this, of 
course, there are all-girl schools now in Pakistan being set 
up.
    I visited one of them out in the Northwest Frontier only to 
learn later that that particular school had been destroyed by 
the Taliban. That should tell us all we need to know. Education 
is the key counter to destructive ideology.
    As we will hear today, women's central role in families and 
communities make them uniquely positioned to intervene and to 
stop the radicalization of their children. Mothers are most 
likely to spot the signs that something is off. Simply put, if 
angry young men are to be stopped before they strap on a 
suicide vest, women will be key to stopping them.
    It is also worrisome that, as one witness will warn, it is 
worrisome the soft radicalization of women and she will point 
to the growing trend of women involved in terrorist attacks. 
Education has the potential to counter this, too.
    We look forward to hearing from our witnesses on how 
women's education can play an important role in defusing the 
factors that contribute to extremism and how educating women 
and girls is a catalyst for economic development. As one 
journalist has put it, ``Girls schools are just about the best 
long-term counter terrorism investment available.''
    I now turn to the ranking member of the Subcommittee on 
Europe, Eurasia, and Emerging Threats, Mr. Keating from 
Massachusetts, for his opening comments.
    Mr. Keating. Thank you, Mr. Chairman. Ranking Member Engel 
was unable to attend this morning and I would like to ask the 
committee for unanimous consent to insert his opening statement 
for the record.
    Chairman Royce. Without objection.
    Mr. Keating. Thank you. I want to extend my gratitude to 
Chairman Royce and Ranking Member Engel for their willingness 
to hold this important hearing and for their readiness to work 
with myself and other members of the committee in support of 
this timely topic, and I want to thank each of the witnesses 
for their testimony this morning.
    I join the chairman and the members of the committee that 
are here to mention that with all sincerity our thoughts are 
with the families of the loved ones that were lost in the Fort 
Hood shooting.
    It was our former Secretary of State, Hillary Clinton, who 
said, ``If women are healthy and educated their families will 
flourish. If women are free from violence their families will 
flourish. If women have a chance to work and earn as full and 
equal partners in society, their families will flourish and 
when families flourish communities and nations will flourish.''
    We are in the year 2014, yet women still account for two-
thirds of the world's 774 million adult illiterates, a 
proportion that has remained unchanged over the past two 
decades.
    And while the overall progress in primary education on a 
global scale in the past decades is encouraging, major barriers 
still persist. According to a recent World Bank study, 72 
million children, a majority of them girls, are out of school.
    For this reason, although we may differ in opinion as to 
how much we should devote to particular programs in the 
international arena on this committee, we know that there is an 
investment that will continue to yield high returns and that 
investment is in women.
    Through their individual empowerment, whole communities 
stand to benefit from women who have already been assisting 
their communities through both traditional and nontraditional 
means, particularly, in regard to dealing with youth in areas 
that have been impacted by violent extremism.
    Violent extremism is not a regional infliction but crosses 
all national and regional boundaries. It can infiltrate our 
community or culture and is not bound to one cause or another, 
often leaving us with a feeling of helplessness at its 
extensiveness.
    Violent extremism is also remarkably self-regenerating, a 
reality that makes efforts to understand its origin, quell its 
spread, and counter its impact extremely difficult.
    Now, with the final year of troop withdrawal from 
Afghanistan underway and the final effects of the Arab Spring 
yet to be seen, we have had to emphasize focus on developments 
in the Mideast and Southeast Asia.
    But the time is right to elevate the conversation on 
women's role in civil society and countering violent extremism 
in this regard throughout the world. Our discussion today 
should not revisit the countless reasons why women, half of the 
world's population, should also account for half of its civic 
participation in leadership.
    Instead, we should seize this opportunity to hear from our 
three esteemed panelists on what precisely the U.S. Government 
and aid organizations are doing and should be doing to have the 
most impact abroad.
    Already, organizations like Muflehun and the World 
Organization for Resource Development and Education and the 
U.S. Institute for Peace, to name those represented today, are 
having this conversation and drawing attention to this 
important topic.
    However, here in Washington, where there is no shortage of 
intellect, policy experts and curiosity, too often these 
conversations remain within separate communities from security 
experts to civilian organizations and academia. It is time, as 
I said, to elevate this conversation to the highest level.
    In the short term, yes, it is critical to build up security 
forces so they are self-sufficient and can directly respond to 
counter violent extremism with targeted enthusiasm. In the long 
term, however, we must ensure that our efforts yield greater 
economic opportunity.
    It is through access, through education, that we can most 
effectively empower half of the world's population--our women 
and our girls--as the front line agents of change.
    Today, we will hear directly from active members of the 
peacebuilding community and learn about their efforts to 
prevent extremist violence and make women, even those in the 
most marginalized positions, a part of the global solution.
    I look forward to their insightful testimony and I 
encourage my colleagues to utilize this opportunity to expand 
our understanding of how we in Congress can better ensure 
effectiveness in existing programs and resources, and I yield 
back my time, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Keating.
    Mr. Keating was instrumental in helping organize this 
committee and bringing it together for this hearing this 
morning on this issue. So I wanted to thank him in particular 
for his leadership on this important issue. We will now go to 
our distinguished panel of witnesses.
    For over two decades, Dr. Hedieh Mirahmadi has briefed 
numerous policy members and led several innovative programs to 
explore counter extremism initiatives in both Afghanistan and 
Pakistan. She also established the International Cultural 
Center to engage families in community building initiatives.
    Ms. Humera Khan is the executive director of Muflehun, a 
think tank specializing in preventing radicalization and 
countering violent extremism. Previously, she designed and 
integrated methodologies for threat anticipation and risk 
assessment.
    Dr. Kathleen Kuehnast is director of the Gender and 
Peacebuilding Center at the U.S. Institute for Peace. Dr. 
Kuehnast has worked 15 years in the international development 
field where her research has included studies on community-
driven development and post-conflict reconstruction.
    Without objection, the witnesses' full prepared statements 
will be considered part of the record and members will be given 
5 calendar days to submit any questions or statements or 
extraneous materials for the record.
    And we will ask Ms. Mirahmadi if she could please summarize 
her statement. You are on.

    STATEMENT OF HEDIEH MIRAHMADI, PH.D., PRESIDENT, WORLD 
      ORGANIZATION FOR RESOURCE DEVELOPMENT AND EDUCATION

    Ms. Mirahmadi. Thank you. Thank you, Chairman Royce, 
Ranking Member Keating and members of the committee. Thank you 
for the opportunity to testify here before you today.
    Some experts rightly argue that the pursuit and 
apprehension of terrorists is a very different functional 
problem than the prevention of new recruits. The goal then of 
countering violent extremism, CVE as we call it, as opposed to 
the capture or kill focus of counter terrorism has led to a 
whole body of social science research that provides a framework 
for understanding the dynamics of radicalization.
    Although we won't be able to predict who can be 
radicalized, we can mitigate the factors that leave a man or a 
woman vulnerable in the first place. This is the space where 
community-based programming is so critical.
    Increasing women's access to secular and mainstream 
religious education is an important part about how they will 
prevent radicalism. In addition to expanding their access, 
there needs to be curriculum within these programs which 
undercuts the bifurcated world view presented by extremists who 
perpetrate a culture of hatred and misconceptions of the other.
    Fortunately, some female activists in Pakistan have already 
begun implementing such a solution. So over the past 4 years my 
organization, WORDE, has conducted field work in over 75 cities 
across Afghanistan and Pakistan to explore community-based 
solutions to violence. I presented those examples in my 
testimony but here I would like to highlight just a few.
    For example, in Kabul, in the Hanukah Parwan, it supports a 
neighboring madrassah that has approximately 700 students, 
female students, at all times, solving women's problems, 
including family disputes and the teachers serving as 
confidantes and mentors to these young girls.
    In Kandahar during a heavy period of violence in 2010 it 
was thousands of women who congregated to urge the warring 
Taliban and pro-state factions to lay down their weapons. It 
was so successful that the U.N. organized similar rallies 
across the country.
    In the tribal frontier of Pakistan, Paiman established the 
Let's Live in Peace project, where women and youth are taught 
mediation and conflict transformation skills. To date, over the 
past 20 years Ms. Kadeem has reached over 35,000 youth and 
2,000 women.
    And finally, Dr. Amina Hoti has recently established the 
Center for Dialogue and Action at the Foreman Christian College 
in Lahore where she is developing Pakistan's first interfaith 
curriculum to educate university students on the importance of 
pluralism, social harmony, and respecting the other.
    And finally, of course, a discussion of women's efforts to 
increase education and counter extremism would not be complete 
without a discussion of Malala Yousafzai's fight for girls' 
education and defeating terrorism. We really hope her legacy 
will be continued through H.R. 3583.
    In countries where governments are corrupt, incapable or 
unstable, the burden of peacebuilding and countering violent 
extremism often falls on nongovernmental actors. So I will 
conclude with some very important recommendations from the 
activists on the ground, which are important principles for any 
CVE focus, development and education initiatives.
    One, greater efforts should be made to include female 
activists, especially those outside of urban centers, to any 
peacebuilding, security, counter terrorism and national 
reconciliation conferences. They are an essential part of 
creating local buy-in with their families and communities.
    Two, the U.S. should prioritize funding for building the 
capacity of women-led civil society organizations. Whether they 
work in the field of education, peacebuilding or nonviolence, 
they are an important part of the solution.
    Three, the U.S. Government could use its power as a 
convener and facilitator to host female activists from around 
the world facing political instability and violent extremism so 
they can share their best practices and learn from one another. 
It is important to take our local successes and give them a 
global reach.
    And four, as we engage in more peacebuilding initiatives, 
we have to develop some benchmarks for collaboration. 
Specifically, we should expect our local partners to share our 
values in promoting social cohesion and pluralism, respecting 
religious freedom, and advocating for nonviolent solutions to 
conflict.
    While increasing access to quality secular education can 
create better jobs for women and reduce some of the economic 
drivers of radicalization, educated women also play a pivotal 
role in inoculating their children and eventually their 
communities against radical narratives.
    By empowering more women in this field and especially in 
cross cultural education, peacebuilding and preventing 
radicalization, we create the public space necessary for them 
to be at the forefront of preventing violence.
    Thank you for the opportunity to testify here today and I 
look forward to your questions.
    [The prepared statement of Ms. Mirahmadi follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      ----------                              

    Chairman Royce. Go ahead.

   STATEMENT OF MS. HUMERA KHAN, EXECUTIVE DIRECTOR, MUFLEHUN

    Ms. Khan. Good morning, Chairman Royce, Ranking Member 
Keating, and members of the committee. It is an honor to appear 
before you today to discuss the role of women's education in 
promoting development and countering radicalization.
    My remarks are going to be a summary of the statement, 
which has been submitted, and I will actually be focusing on 
the role of education specific to countering violent extremism.
    This is a field where we have multiple definitions of CVE 
so let me lay out the definition I will be using in my 
statement. Countering violent extremism is the use of 
noncoercive means to dissuade individuals or groups from 
radicalizing toward violence and to mitigate recruitment, 
support, or engagement in ideologically motivated terrorism by 
nonstate actors in the furtherance of political objectives.
    Now, the programming which happens around it is around 
denying terrorist groups new recruits and this is by providing 
positive alternatives, countering terrorists' narratives, but 
also building the capacity of government and civil society.
    We have to recognize that CVE goals are very specific and 
that actually separates them out from both development and 
public diplomacy. So while there is a difference in the 
objectives, both development programs and public diplomacy 
initiatives can actually have secondary and tertiary impacts 
for CVE goals.
    Now, the most effective way for CVE programming to meet its 
objectives is a whole of society approach, which means everyone 
in society, all sectors, and we can categorize the programming 
based on prevention, intervention, interdiction and 
rehabilitation.
    And one of the things we have to be aware that we have--
there is CVE relevant programming and that helps establish 
stronger and more resilient communities, and they have a 
reduced vulnerability toward radicalization to violent 
extremism.
    And so many of these programs are actually preventative and 
these are the examples, and several educational initiatives are 
in CVE-relevant programming. But at the same time, there is a 
need for very specific CVE-specific programming with direct CVE 
goals, and these will be--some of them will be preventative, 
but they will also be working in the areas of intervention, 
interdiction and rehabilitation.
    And those CVE programs become really important, and 
programs like raising awareness of terrorism threats, what is 
radicalization, types of behavioral indicators, counseling for 
radicalized youth all fall under CVE-specific programming.
    Now, what we have to keep front and center is that the 
impact of women's education is always going to be within the 
context of their role in society. So in the patriarchal 
societies that we are talking about, right, the voice of women, 
their empowerment, is curtailed.
    So when you educate women and they are empowered what you 
are doing is changing the status quo, which means men are 
immediately also stakeholders in this change. And if you do not 
have community support for your initiatives they will not be 
effective.
    Now, despite all the society constraints that exist, women 
are actually full participants in all types of CVE programming, 
both CVE specific and CVE relevant in prevention, intervention, 
interdiction, rehabilitation--all aspects of it.
    I would like to emphasize that whereas CVE-relevant 
educational and vocational programs are essential for healthy 
societies, they will actually not be sufficient in eliminating 
extremism without CVE-specific initiatives as well.
    So, in the interests of time, I am going to refer you to my 
written statement on the section on reducing barriers to 
women's participation. I would like to highlight that educating 
women on recognizing the signs of radicalization is actually a 
very good early warning system for communities.
    Also, the need to help women and families of people who are 
violent extremists, whether they have been arrested or dead, 
because what it does is prevents them from sending or 
supporting more of the family members into violent extremism.
    We know that social media is an equalizer for cases where 
women have limited voice because it gives them a way to express 
their views despite society constraints, and we know that in 
countries like Pakistan where 60 percent of the women are 
illiterate, broadcast media has to be used because print media 
will not reach them. So radio and television are very effective 
in reaching the target audience.
    So I would like to conclude by saying that development of 
CVE-specific customized local curriculums have to be used to 
push back against violent extremism in addition to the CVE 
relevant preventative programs, and this combination of both 
CVE-specific and CVE relevant programs has the ability to build 
community resilience, empower women, and counter extremism in 
the long run.
    So in this world where women are often victimized and they 
are oppressed by extremists, it is actually very heartening to 
see that they are able to transform themselves through 
education to be the line of defense against violence and 
extremism.
    And so really supporting increased enrollment in tertiary 
education for the women of Pakistan, through the Malala 
Yousafzai Scholarship Act, is an important step toward 
improving the role and empowering them to become change makers 
in the society.
    So Chairman Royce, Ranking Member Keating, and members of 
the committee, thank you for your attention and I look forward 
to answering any questions that you may have.
    [The prepared statement of Ms. Khan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ----------                              


  STATEMENT OF KATHLEEN KUEHNAST, PH.D., DIRECTOR, GENDER AND 
     PEACEBUILDING CENTER, UNITED STATES INSTITUTE OF PEACE

    Ms. Kuehnast. Good morning. I want to thank each of the 
members of the House Foreign Affairs Committee and especially 
Chairman Royce, and Subcommittee Ranking Member Keating for 
this opportunity to give testimony.
    My name is Dr. Kathleen Kuehnast. I direct the Center for 
Gender and Peacebuilding at the United States Institute of 
Peace. The U.S. Congress created the institute 30 years ago 
with a mandate to prevent, mitigate and resolve violent 
conflicts around the world.
    My statement presented today reflects my own views and does 
not necessarily represent the views of the Institute of Peace 
which does not take positions on policy and is prohibited from 
taking positions on legislation.
    I want to make three points related to women and the roles 
in preventing extremist violence. First, there are excellent 
policies already in place to support this effort. Second, good 
work is underway that we can learn from, and third, we can and 
we must shape better and more effective policies for the 
future.
    In light of the discussion today, it is notable that the 
U.S. National Intelligence Committee Council's Global Trends 
2025 report highlights women as agents of geopolitical change 
and predicts that the economic and political empowerment of 
women should transform the global landscape.
    In 2011, President Barack Obama issued an executive order 
that directed the U.S. Government to establish the U.S. 
National Action Plan on Women, Peace and Security.
    It is mobilizing the different government branches to 
accelerate the integration of women in shaping, making and 
implementing security policy and practice.
    One of the pillars of the plan promotes women's roles in 
conflict prevention and early warning and response systems 
including the roles women play in the prevention of violent 
extremism. The U.S. Institute of Peace is piloting a project in 
Nigeria that emphasizes the importance of women's roles in 
their communities and in their home.
    USIP has learned that training in critical thinking and 
problem-solving skills enables women to combat violent 
extremism at multiple levels in their society. At home, mothers 
are often the first to observe the early warning signs of 
radicalization in their families. While the observation of 
changing or changed behaviors of their children may be 
intuitive, for many, the awareness and understanding of the 
process of radicalization is not. Even if mothers recognize 
radicalization in their children, they often lack skills needed 
to intervene.
    Women need to be equipped and supported in their efforts to 
prevent their children from joining extremist groups and also 
to build their own capacity to reject the influence of 
extremism and violence. Outside the home, at the community 
level women can be voices of tolerance and can provide strong 
counter messages to extremism.
    Specifically, in Jos Plateau, Nigerian women religious 
leaders, both Christian and Muslim, work as mentors in their 
communities. As a result of this training, they have expanded 
their roles to both monitor and provide counseling and guidance 
to vulnerable youth.
    Although the role of women is vital in countering extremist 
violence, the important role that fathers also play in being 
change agents and in supporting their daughters' education 
should be recognized.
    In the case of the brave Malala Yousafzai, her education 
was strongly encouraged by a father who understood that girls 
should be educated for the good of the child and for her 
country, even in a very conservative society. It is clear that 
there is high demand by women for knowledge and skills to 
prevent violent extremism.
    What is needed to shape a responsive effective policies for 
the future? Improved access for women and girls to education so 
that they may develop skills, knowledge and self-confidence 
necessary to be productive participants in their society, 
develop inclusive policy and practices that focus on the role 
that women can play in preventing violence and violent 
extremism, ensure that men are involved in advancing the 
education for girls and women--fathers can play pivotal roles 
in supporting their daughters--and develop collaborative 
partnership among researchers, practitioners and policy makers 
to bridge divides and develop more innovative approaches.
    We know that it is in the interest of the United States to 
continue to support expanded international opportunities of 
women and girls as an investment in national and international 
security and to envision this long-term preventative strategy 
in the global effort to end violent extremism.
    Thank you for your time. I am happy to answer any 
questions.
    [The prepared statement of Ms. Kuehnast follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Chairman Royce. Thank you very much.
    One of my friends in the Pakistani-American community had 
shared with me--he is in the IT community--his frustrations 
with governments in South Asia, across South Asia--India, 
Pakistan, et cetera--the amount of money that was allocated for 
education, which I think at the time he was claiming was like 2 
percent, and he was contrasting that with, you know, the arms 
race in terms of nuclear weapons in India and Pakistan and the 
fact that the societies, the governments themselves, didn't 
seem to understand that their long-term interests lie with 
educating their population and educating women and providing 
them with the ability to--you know. The question is the 
capacity of governments, I guess, and the willingness of 
governments around the world to recognize that education for 
women and girls is important but also to budget for it.
    And then there is the second question, which I wanted to 
ask our first two panelists, and that is for those governments 
putting money into childhood education, how concerned should we 
be about their capabilities of doing it effectively? So I will 
just ask you that question.
    Ms. Mirahmadi. Thank you, Chairman. I actually think it 
is--of course, there is a limited capacity, as you mentioned. 
If the budget is only 2 percent the capacity is obviously going 
to be a bit limited and hopefully with international aid and 
more focus paid on education.
    Chairman Royce. And those were his figures. They are not 
mine. I don't know what the real figures are.
    Ms. Mirahmadi. Unfortunately, I don't have that statistic 
with me either.
    Chairman Royce. But it is----
    Ms. Mirahmadi. If it is close----
    Chairman Royce. I think his point is probably true.
    Ms. Mirahmadi. What I am actually really concerned about, 
and I heard some activists from Pakistan here yesterday at the 
Atlantic Council, was the role that nongovernment organizations 
in education play on these communities.
    So ones that are funded from overseas that have alternative 
motives in funding these schools, and the religious schools, 
they may be creating a problem that even if the Central 
Government is trying to solve and create a very strong secular 
educational system we need to be careful about what is going on 
along side it by these other institutions that they don't 
control.
    Chairman Royce. Yeah. I think especially some of the Gulf 
State money that goes into the Deobandi schools. How am I 
supposed to pronounce that? Deo----
    Ms. Mirahmadi. Deobandi, yes. You and I have been talking 
about this for almost two decades now. So----
    Chairman Royce. Well, I have had three trips to Pakistan 
where I have talked unceasingly about this with the government, 
and there are 600 schools, which they admit are problematic, 
and those 600 we have never gotten closed.
    There are, you know, tens of thousands of madrasas that 
educate to some extent, you know, young people in a positive 
way, but there are 600 schools that we know are doing this and 
there isn't the political will to confront that faction, either 
in the legislature or out in--you know, among the support for 
the Taliban to get them closed.
    Ms. Mirahmadi. And I think the problem and I understood 
this from government officials in many countries is that it is 
not just the education that creates the problem. It is the 
sense that these communities provide funding, they provide 
resources, food, social services to the surrounding community--
--
    Chairman Royce. Right. Right.
    Ms. Mirahmadi [continuing]. In addition to the kids' 
education.
    Chairman Royce. Right.
    Ms. Mirahmadi. That it becomes a real difficult social 
political problem to close that school. Then all those 
resources going to that community are cut.
    Chairman Royce. But that is the insight of the Gulf State 
benefactors, those families who are sending that money because 
they know that that is the way----
    Ms. Mirahmadi. Exactly.
    Chairman Royce [continuing]. Then to pull people in and 
radicalize them.
    Ms. Mirahmadi. The Hamas model.
    Chairman Royce. Ms. Khan.
    Ms. Khan. I think the latest figures for a place like 
Pakistan are slightly less than 2 percent is going toward 
education. So it is actually quite--it is a very bad situation 
for it.
    In terms of where is the most effective money, in studies 
which have been done they found that the level of--moving from 
primary to secondary education, if you can actually have 
secondary education, it actually has a direct impact on the 
risk of conflict in those areas, and there have been places in 
Africa where they have seen it actually dropped by almost half 
if you can actually reduce the education inequality between men 
and women.
    So the need is huge and it actually would have a huge 
impact. Now, are the governments doing it? No. Is there 
political will? Not really, because there is enough other--I 
hate to say excuses, but enough other reasons that they feel 
that there is other concerns that they would like to focus on 
instead.
    Chairman Royce. But you feel that electing more women to 
office in those countries can help drive this agenda of more 
money for education because so much of it is going to be 
allocated to this idea of allowing young women an equal chance 
at education, right?
    Ms. Khan. Necessary part of it, and I think the other part 
is also education reform--the curriculum reform itself across 
all levels. It doesn't matter whether it is primary, secondary 
or tertiary because there are issues around, obviously, some of 
the problematic madrasas.
    But at the base level, there needs to be educational 
curriculum reform across the system to reduce the general level 
of the sense of hate mongering which is happening in many 
places.
    Chairman Royce. So an anti-Western curriculum, to pick one 
example, might be a problem that you have seen in some of the 
textbooks themselves in South Asia?
    Ms. Khan. It is--yeah. It is things which you need--we need 
curriculums which promote social cohesion rather than actually 
emphasizing difference and conflict. And so that has to 
permeate curriculums across the board, not just in madrasas.
    Chairman Royce. One of the things that I have seen that is 
pretty inspirational is--especially out of the physician 
community when you have graduates of, you know, women or men 
who have doctorates here in the Unites States, they tend to be 
tremendously successful in the West and the amount of time and 
effort they give back to, you know, their education, to their 
medical schools or to setting up schools in Pakistan, for 
example.
    That is where I think a lot of the insights can come from 
in terms of people who are enormously successful here and yet 
are having a hard time figuring out how to work with USAID or 
our Government in order to leverage their expertise and their 
hard-earned dollars that they contribute back in order to try 
to improve society and/or try to increase education and so 
forth.
    I wonder how we could better get USAID to work with the 
diaspora or with the community here in the United States in 
meeting these challenges and maybe leveraging these dollars and 
so forth.
    Ms. Mirahmadi. Actually, it is something I mentioned in my 
written testimony, that we need more cooperation between our 
Government bodies and the diaspora community. And I know there 
has been several attempts, and the USAID has a particular 
office that handled that, but knowing some people that had 
participated in those conversations, it is often just a very 
simple discussion.
    It doesn't get to concrete examples of how to move these 
initiatives forward, and I know it happened right before, like 
this one RFP was coming out and it ended up a $200 million RFP, 
and the community responded that there is no way any of us can 
absorb that kind of an RFP.
    You know, if you want us to help and you want us to suggest 
schools, none of us are capable of that level of commitment and 
that responsibility. So, I think the relationship kind of broke 
apart at that point, but it is important to notice that.
    Chairman Royce. I am trying to set up a dialogue with USAID 
and I wondered if you could assist me with that on this 
subject.
    Ms. Mirahmadi. Of course.
    Chairman Royce. We are going to bring in----
    Ms. Mirahmadi. I would be happy to.
    Chairman Royce [continuing]. Representative communities. I 
thank you very much. My time has expired. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chair. I want to follow up on 
the thread that the chairman had started. Obviously, the U.S. 
is not the only country or group that understands the value of 
working to empower people through education and through 
welfare, and extremist organizations are also operating at the 
local welfare and educational level as well.
    I want to follow up to see what can be done to compete with 
this? Because they are taking a vulnerable population, young 
people, and indoctrinating them with extremism types of 
thought. What can we do to deal with that?
    Because it is not just us wanting to move forward in these 
countries. We are competing in some instances with extremist 
groups that are doing the same thing. Anyone can----
    Ms. Kuehnast. I will answer. Based on my work in Central 
Asia, I was on the ground when the Soviet Union fell apart and 
I watched exactly what you are talking about. They are 
masterful at ground work.
    The first thing that they did is they taught English 
skills. They taught really practical skills that people on the 
ground needed, where the Western countries were primarily 
focused on trying to institutionalize from the top down. They 
were working from the bottom up.
    I think we need to somehow, as we are dealing with 
societies in deep transition or coming out of conflict, we have 
to keep both parts of this change in our focal point. It is 
harder to measure the ground.
    You need people like social scientists on the ground to be 
able to track this. But it is incredibly important if you want 
to make headway and to provide the skills, and in some cases it 
is food, education, clothing--basic needs in transitional 
situations.
    Ms. Mirahmadi. I think another--of course, the extremists 
are recruiting, and they are using religion. So the antidote 
will be religion.
    So the difficult part comes as the United States doesn't do 
religion so it is a very complicated position to be in, though 
I really believe that, and this is from many, many activists if 
not hundreds in Pakistan that run mainstream religious 
institutions and organizations, that they need the skills and 
the resources to compete.
    In other words, if there is a mainstream madrasa right down 
the street in Multan from an extremist Deobandi madrasa he 
needs computers to be able to draw students. He needs English 
language books to be able to compete with him and these are 
small amounts of money.
    But in order to have the capacity to serve students and 
attract them, he needs to be able to compete with those 
madrasas. And so it is just us being able to invest in 
religion, and that makes us uncomfortable.
    Mr. Keating. Ms. Khan had mentioned the difficulty, you 
know, disproportionately women are illiterate, and it is so 
hard to communicate the message.
    Now, what are the better ways? I know we have, you know, 
Radio Free Europe, Voice of America. We have social networking. 
Now, how do you help particularly women who are 
disproportionately illiterate--get that message to them?
    Ms. Khan. So now this is going to be very, very context 
specific, because in a place like Pakistan you have very 
limited permeation of the Internet and social media.
    So what you are limited to in most cases is actually mobile 
technology, which means you have your voice broadcast, you have 
your audio, your radio, your TV--again, very influential in 
those societies for sending out messages and that has been done 
and is being done.
    But then you also have anything which can be text-based, 
which is coming off of phones, and there are certain groups on 
the ground in Pakistan who are actually using those to put out 
messages promoting peace and against violence.
    If I may actually go back to the previous question a little 
bit as well is that this is a place where the role of women, if 
you can actually get them educated or at least be able to start 
earning an income, it actually changes the dynamics of the 
family structures, and they are actually empowered to start 
questioning their family members who might be going down toward 
extremism.
    So it is not just that they are earning money, but the 
status and their rank and those dynamics have a huge impact. 
And so when you get education into it, and you can get the 
messaging into them, what you are doing is, one, their status 
is raised--they are empowered.
    But then they are also--if you can give them the content 
with which to question, right, and if they are able to question 
at the very beginning of the signs of radicalization, it is a 
lot more effective, and this is not just a women's program. It 
has to be community based for the communities around, not just 
that family, but around them to support that structure too.
    Mr. Keating. Well, that leads me, lastly--and we are 
running out of time so--but specifically older women. I know we 
are gearing in on education and the effect of women who have 
children that are at an early age for education.
    You were touching upon this. How do we get to the older 
women who are beyond that stage and empower them? Because they 
have a very important role as well.
    Ms. Khan. Face to face. Face to face. We need more women on 
the ground because sometimes women are the only ones who 
actually have access to women in those communities.
    So you need to have the women who are going to say this is 
going to be my drive, my cause, and they will be the ones who 
will create those safe spaces for education. And I talk about 
education in the general sense but for CVE-specific 
programming. We need women empowered to do CVE-specific 
programming on the ground.
    Mr. Keating. Thank you, Mr. Chair.
    Chairman Royce. Thank you. We go now to Mr. Steve Chabot of 
Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
calling this hearing. Promoting women's education throughout 
the world is incredibly important. I think we would all agree 
to that.
    As the witnesses have noted, countries within South Asia 
face some of the most challenging barriers to girls' education 
and poverty is a central reason why millions of girls still 
miss out on school.
    Many of these countries, for example, Pakistan, India, 
Bangladesh, Sri Lanka and Nepal, also face socio-cultural 
factors that further limit girls' accessibility to education. 
When we discuss how to increase educational and economic 
opportunities for women in these countries, I believe it is 
important for us to also address how we define success in basic 
education because these countries have their own definition 
sometimes of that term.
    How they define success impacts the quality of education 
these millions of girls are offered. Could the witnesses 
discuss that issue, how we should be defining success and how 
in many instances in those countries it may not be what we 
typically think it ought to be if we really want to educate 
these young women to what their future may hold? Ms. Kuehnast.
    Ms. Kuehnast. Yes, thank you very much. Defining success, 
as my colleague here talked about, is context specific. I don't 
think we can dictate what is notions of social cultural ideals 
and ideas about what is successful for a girl or a boy.
    I think some of the success though does come in the fact 
that we begin to allow the space, even ideologically, that 
girls are worthy of education and that is a harder social 
cultural notion to shift. That is why fathers are pretty 
critical in this story board.
    We need them to also be part of the change process. Part of 
the change agency is to engage that whole of community and, in 
that perspective, help to develop intrinsic sense of what it is 
to be successful in their respective village, community, state.
    Mr. Chabot. Thank you. Since time is relatively brief for 
us I am going to address my second question to the other two 
panelists, if that is okay.
    Another of the obstacles facing girls in getting an 
education is fear of potential molestation and harassment on 
the way to and from school. This greatly impacts their school 
attendance, access to school, their learning, and their 
achievement.
    Regardless of their age, girls and women in many Middle 
Eastern and South Asian cultures cannot even leave their 
household without an adult male family member, for example. We 
have all heard stories about women who have not done it that 
way and ended up suffering from sometimes brutal attacks.
    As a way to combat this obstacle, Pakistan, for example, 
undertook a measure to provide scouts to accompany girls and I 
was wondering if anyone knew if that works, or are there other 
countries who find ways around some of these cultural barriers 
and get past the very destructive belief that investing in 
education for girls to be a waste of resources and, 
unfortunately, that is a view that is held sometimes in these 
countries. So if I could perhaps ask Doctor and Ms. Khan also 
to respond to that.
    Ms. Mirahmadi. I am not particularly familiar with the 
success of the scout program or not, but I know community 
policing is a valuable tool in our toolbox. Basically there are 
some difficult relationships to negotiate between communities 
and their police, and I know our Government and many 
governments are investing a lot in teaching them community 
policing models and the importance of them being responsive to 
their populations.
    So I think in the cities in which we have done community 
policing training there is increased success in the protection 
of women especially because they are part of those training 
modules.
    So I think expanding and elaborating our community policing 
models to make sure they protect the rights of women and girls, 
and especially going to school and getting an education and 
being able to come to and from work as well, will be an 
important contribution.
    Mr. Chabot. Thank you. Ms. Khan.
    Ms. Khan. Pakistan has started a scheme which is called the 
Pink Busses, and the idea is to allow transportation which is 
specific--it is gender segregated so women are actually not 
harassed and they can actually get from Point A to Point B.
    Definitely the lack of--the limited access to 
transportation to education is a factor and this is, again, one 
of those schemes which has had limited success because of 
resources, but they keep--it is enough of a need that they are 
trying to reinvest in those programs again and again.
    There are several other countries which have actually done 
things like having gender segregated parks or public 
transportation to allow--you know, to facilitate access.
    But in terms of changing minds, right, these are 
patriarchal societies, and so the people whose opinions have to 
be impacted are the men, right, and so there is an education 
aspect which has to be directed toward the men in the society 
about no, it is important for the women to be educated, and it 
should not be a threat to them that the women are actually 
educated.
    Chairman Royce. Mr. Joseph Kennedy of Massachusetts.
    Mr. Kennedy. Thank you, Mr. Chairman, and I want to thank 
Congressman Keating as well for pulling this very important 
hearing together. First off to the witnesses, thank you for 
being here. Thank you for your testimony. Most importantly, 
thank you for what you do. It is extraordinarily important 
work. It is very difficult work and we are grateful for your 
commitment to development around the world.
    I was a former Peace Corps volunteer. You learn pretty 
quickly that if you want to get anything done, you go to the 
women in the community. So it is a lesson that I learned first 
hand, and if you actually turn around I think you will notice 
that given the gender dynamics of the room, I think I counted 
six men in the audience that weren't staff members. So I am 
glad to know that that lesson is still alive and well in the 
halls of Capitol Hill.
    If I am kind of understanding your testimony and your 
answers to the questions a bit, yes, money and financial 
resources are certainly a constraint. They are always going to 
be a constraint.
    But also you are running up against history. You are 
running up against traditions. You are running up against 
longstanding, not even institutionalized, but just deep-rooted 
feelings about how things go and how things are done.
    That is made all the more concrete and all the more 
strengthened, I guess, in sections of the world, even in 
countries where their access to institutions or institutional 
players are virtually nonexistent.
    Whereas, I think one of you pointed out, religion is 
sometimes the only or the strongest institution that is 
present, and in communities that are in either post-conflict or 
coming out of conflict and stability, people go with who they 
know and what they know.
    And unless you have a long and sustained presence on the 
ground just to be able to build that trust, it is awfully hard 
to take on some of these challenges and entrenched, literally 
deep-held and deep-rooted beliefs that go back generations if 
not longer. And so I wanted to get your thoughts--you touched a 
little bit on that bottom down versus--excuse me, bottom up 
versus top down strategy.
    What from a policy perspective should we be doing to 
strengthen that and if you can--I view this as part of a much 
larger strategy. You need to keep doing what you are doing.
    We need to be far more supportive of what you do but trying 
to plug away at this in a vacuum, just supporting what you do, 
I am not so sure we are going to get you where you need to go 
unless we are also focusing on the context in which you are 
operating.
    So if you could just fill out that picture a little bit I 
would be grateful.
    Ms. Mirahmadi. So I mentioned briefly the concept of USAID 
and the size of their grants, and I know--I have heard they 
have been trying to adjust that. I don't know how far they have 
gotten.
    But empowering local communities requires them to have 
access to resources, so even if it is not reducing the size, it 
is just making our larger organizations partner with more 
organizations, basically providing smaller grants to local 
partners.
    So being able to resource these community efforts, and as I 
also mentioned using our power as a facilitator to convene some 
of these people that are doing great work around the world, to 
talk about their best practices and be able to give those 
projects a global reach.
    For example, Dr. Edah Schleffer does the Mothers Schools. 
So she takes cities, you know, and goes across cities from 
across India and Yemen and Nigeria and telling--and creating a 
network whereby women can learn to intervene in cases where 
there children have been radicalized. So that experience of a 
mother of Pakistan is absolutely relevant to the experience of 
a mother in Nigeria.
    So using our power as a convener and as a facilitator is 
very important as well. And then also just being able to give a 
floor and an audience to people that are doing community work 
so those lessons learned can be applied in other countries.
    Mr. Kennedy. Ms. Khan.
    Ms. Khan. So I agree with everything Hedieh said, without a 
doubt. I think one other thing which is important in terms of 
for programming itself is that we have to think about it in 
terms of long-term perspective.
    You are trying to change people--the way people think, some 
of the cultural norms perhaps but more so the values, right. 
You are trying to instill a sense of what is right and wrong, 
you know, more on peace, less on conflict.
    This takes time. So when you end up in a situation where 
programs are funded and these annual--you know, there is annual 
funding and the question is the program itself needs to run for 
several years.
    Sometimes the cycle of funding and the cycles for 
evaluation the MOEs and MOPs can actually hinder the 
implementation of the programming itself. So just like in 
development--infrastructure development projects they span 
years.
    We have to think about women's education, especially in 
this realm, in the same way. This is not a short-term thing. 
This is a long-term commitment which requires everyone to play 
a part.
    Mr. Kennedy. Thank you. Doctor, if you can, briefly.
    Ms. Kuehnast. Very briefly, I wanted to say in terms of the 
policy-shaping story board, one of the things we want is 
definitely best practices, but we need lessons learned. We did 
an assessment on women's programming in Iraq and Afghanistan 
and we found three things that need to be considered.
    We need to step outside the urban area and not only deal 
with elite women but also rural or agriculturally-based 
communities. We need to engage religious leaders in these 
change processes and, finally, we actually--and this came 
through all of these assessments we did--we have to engage men 
in the training as well.
    We are not going to change a whole of society by only 
focusing on women as perhaps the victims or the problems here. 
We need to change minds and hearts as a community.
    Mr. Kennedy. Thank you, Doctor. Thank you, Mr. Chairman, 
for the extra time.
    Chairman Royce. Mr. George Holding of North Carolina.
    Mr. Holding. Thank you, Mr. Chairman.
    Having the school programs for girls and women in 
Afghanistan and Pakistan is one side of the coin but, you know, 
making sure that the security situation in those countries is 
in such a state to allow them to achieve their mission.
    You know, my colleague, Mr. Chabot, mentioned some parts of 
the security situation but, you know, with the draw down of 
forces in Afghanistan and the region overall our withdrawal, 
you know, I am concerned about the security situation. The 
chairman mentioned the threat of, you know, groups such as the 
Taliban to these schools--you know, suicide bombers, you name 
it, trying to eradicate these schools by violence and any means 
necessary.
    Do you think the security situation will be such to allow 
the schools to carry out their mission? And I will let whoever 
wants to address that first to go ahead.
    Ms. Mirahmadi. Well, I presented our members--I hope you 
had a copy of our report on Afghanistan post-2014 but, 
according to our researchers and the field work we did, the 
security concern is more for Westerners than it is for locals 
in the sense that though schools do get attacked but life goes 
on in Afghanistan.
    And so it is very important for us, as our military budget 
in Afghanistan decreases, that we increase our civil society 
budget, empowering civil society leaders and communities to do 
their grassroots programming and continue education and 
programs for women that they do well and have done for years 
since we have been investing there.
    So I think we have to understand a certain risk will be 
inherent in these activities. But life for the most part will 
go on for Afghanis, and we have to continue that investment for 
our national security interests. We don't want to just hand the 
country back over to the Taliban.
    Mr. Holding. Right. But, you know, the security concern 
itself--I mean, just yesterday a suicide bomber took out six 
Afghan police officers at a police station. So you think about 
a police station as a target, it should probably be a pretty 
hard target, you would think.
    A school might be a soft target. So there is very real 
security concerns there and yes, you could just imagine the 
horror at a massacre at a school for girls--being massacred for 
doing precisely what you encourage them to do.
    Ms. Mirahmadi. I can tell you a bigger fear in Afghanistan 
is that the United States would turn its back. So more than 
they fear the roadside bomb, they fear that we will no longer 
be interested in them. So I think it is really important for us 
to stay focused on these civil society initiatives.
    Mr. Holding. So, I mean, a draw down of our forces--
military forces in Afghanistan, I mean, what message is that 
sending to the people that you are talking about?
    Ms. Mirahmadi. They are very concerned. I mean, across the 
country they were very concerned about what the draw down 
means. So though, of course, they want the skirmishes to stop 
but they are most concerned with whether that means we will no 
longer have an interest in their future and their prosperity 
and their----
    Mr. Holding. Right. It is just hard for me to see if we 
draw down our military presence in Afghanistan, how you can 
continue with a--you know, civil society programs without the 
military there to protect the programs.
    Ms. Mirahmadi. I am sorry, but I beg to differ. A lot of 
these communities are doing really, really well without our 
military intervention and being able to continue these 
programs, especially outside of Kabul. So I have a very strong 
sense that they would be able to continue, assuming that they 
have the resources to continue.
    Mr. Holding. Good. Glad to hear it. Mr. Chairman, I yield 
back.
    Chairman Royce. Thank you, Mr. Holding.
    We go to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman, and thank you to the 
witnesses. Everything you say is buried in my own story. My mom 
emigrated from India in the 1950s, went to school in the '40s 
as a female. It was unheard of in her village but only was 
allowed to do so because she had a father that thought it was 
important.
    So I think it is incredibly important and then had a father 
that supported her, emigrating to the United States to continue 
her education along with my father. I am the youngest of three 
boys.
    My mom became a public school teacher, and this is 
incredibly personal as a father of a daughter as well. You 
know, when I returned to India in August as a Member of 
Congress we had a chance to visit an organization in Mumbai 
called SNEHA. It is run by professional women, focused on the 
slums in Mumbai, and they specifically pointed out in our 
conversation that one of their key strategies is to work with 
boys.
    And I think all three of you mentioned the importance of 
getting to men--to boys early and over time, changing the value 
and the culture of how they view girls and women. Certainly, 
they are working with girls but I would not under estimate that 
just focusing on girls will not lead to the long-term change 
that we would like to see and I would be curious both in 
Pakistan and Afghanistan as well, if you want to expand on 
that. Maybe, Doctor, you could start.
    Ms. Kuehnast. Certainly. This has been something that has 
come out of our research--that women's programming inclusive of 
girls is more successful when men are engaged and are change 
agents in the process.
    I would say also societies coming out of a violent conflict 
are particularly vulnerable to this concept of hyper 
masculinities where they have a gun, and it helps establish 
their status.
    How do we start unlearning that kind of violence? That is a 
whole set of educational training processes, that include 
curriculum change, that is vital for a new identity of what it 
means to be a really holistic man in society beyond the gun in 
which once their identity was established. It goes hand in hand 
as a holistic society.
    Mr. Bera. Ms. Khan, would you like to expand on that?
    Ms. Khan. Again, I agree with Dr. Kuehnast entirely. I 
think because we are trying to change all of society, 
necessarily the young boys have to be included. But that is 
actually a place where mothers are very influential, right, 
because they are the ones who--for the first formative years 
are the ones who are--they are the ones who--they are the 
guardians of culture and social norms, right.
    So they are actually able to impart those values, right, 
which means they have to learn it themselves, that actually 
women's education is important, that the young man who is going 
to grow up has to recognize it is important for his sisters, 
for the women around him, and he has to be a part of helping 
that.
    Your mother's story, your story, is actually very similar 
to mine. The reason I was able to come here when I was 16 to 
start university was because my father was behind it. There is 
no way it would have happened without full support that okay, 
no, education is important enough for you to take--you know, to 
break social norms and make that difference.
    Ms. Mirahmadi. One Nigerian activist said the home is the 
first school and the mother is the first teacher. So, again, as 
my colleagues have said, it is very important to be dealing 
with both sides of the population at once and to make sure that 
the women are empowered and educated and being able to 
influence their children and then being able to influence the 
dynamic in their home and thereby within their communities. So 
I think both genders are very, very important to further this 
agenda.
    Mr. Bera. Great. Since I am short on time another aspect 
that we have had a hearing on in our subcommittee is on sex-
selective abortion and really moving it out of the realm of 
reproductive rights but into the realm of really educating 
populations on the value and worth of girls as well. And that 
probably is more of a public relations effort and, you know, 
certainly, in India you are seeing some of it. Do you have any 
recommendations on that or thoughts on, again, how you change 
that value?
    Ms. Kuehnast. Well, both in talking about security and then 
this point that you bring up, in some ways we lack imagination 
in the way that we can use technology and social platforms for 
productive means. I think that we sometimes overfocus on the 
security side without being imaginative to how to get around 
these problems.
    And, certainly, when it comes to education we have 
opportunities through cell phones, through other means and, 
certainly, television and radio. I think, you know, we don't 
think enough about that kind of public relations.
    Mr. Bera. Right. Thank you, and thanks for helping us 
imagine.
    Chairman Royce. We are going to go now to Randy Weber of 
Texas.
    Mr. Weber. Thank you, Mr. Chairman. Dr. Mirahmadi--is that 
how you say that? You said that in some of your comments that 
the extremists use religion and then, if I got it down 
correctly, you followed that up by saying the antidote is 
religion. Then you followed that with the problem is United 
States doesn't use religion. Dear God, what are we doing?
    What--if the antidote is religion what does that look like? 
You said the United States doesn't use religion. Expound on 
that. Would you prefer--expound on that.
    Ms. Mirahmadi. No, I have no intention of changing the 
Constitution. England does religion but the issue----
    Mr. Weber. Well, the Constitution doesn't prevent us from 
using religion. Let me just make sure we get that out there. Go 
ahead.
    Ms. Mirahmadi. Okay. Well, it is just that the manipulation 
of ideology is within the context of religion, so the response 
to that manipulation and deviation is the correct 
interpretation of their religion, and in order to do that we 
need to empower a certain segment of the society, religious 
leaders, faith leaders, to be able to impart that proper 
narrative to their communities.
    They already are doing it. They are just competing against 
some of these extremists and deviant institutions. So it would 
be useful if the United States was a little more comfortable in 
allowing them to do what it is they already do and be able to 
do programming in that department.
    But over the years--I have been doing this 20 years--and 
over the years I have just heard a number of discussions about 
how that is just something the U.S. is not comfortable in 
doing.
    So parts of Europe, I know, do all these kind of 
programming quite regularly but that is just not something that 
we are necessarily comfortable with. I know USIP also had some 
faith leader engagement and some programs that Dr. Kuehnast can 
talk to. But maybe over time we will understand how important 
ideology is in this threat and we will find ways--innovative 
ways of being able to empower the counter narrative.
    Mr. Weber. Well, that is a fascinating idea. You are saying 
that there are those who are already countering that religious 
extremism.
    Ms. Mirahmadi. Absolutely.
    Mr. Weber. How are they doing that?
    Ms. Mirahmadi. As I mentioned, with the proper 
interpretation of religion----
    Mr. Weber. All right. Give us that proper interpretation.
    Ms. Mirahmadi. So, for example, jihad. Is jihad valid? Is 
jihad in the country against civilians valid? The mainstream 
teacher says no, it is not. There is no declaration of jihad by 
the state authority. These are noncombatants. We cannot kill 
them.
    There are very valid mainstream interpretations. We have 
written a lot about these that are out there, that they are 
trying to promulgate. But they don't have the resources 
compared to the extremist groups. They are outfunded, 
outmanned.
    Mr. Weber. Are these teachers in the educational system or 
are these teachers in the mosques and the different religious 
organizations?
    Ms. Mirahmadi. A lot of them run religious institutions in 
these countries. But some of them are university professors and 
are in other institutions as well, in CSOs--in civil society 
organizations, outside of religion.
    Mr. Weber. Is this a growing trend?
    Ms. Mirahmadi. I would like to think so. We are a lot 
better off than we were 20 years ago. There is a lot more 
people empowered with those counter narratives and willing to 
have the courage to speak up. Because, remember, in these 
countries that is dangerous. That is a dangerous business. But 
I believe we are better off than we were 20 years ago toward 
this threat.
    Mr. Weber. Thank you. Ms. Khan, do you agree with her 
statement that the antidote is religion?
    Ms. Khan. I think there is a role for religion to be played 
when you are talking about for the antidote for ideologically 
inspired extremism. Extremism, or engagement in violent 
extremism, happens for many different reasons and not all of 
them are ideological, right. It comes through--people get 
involved in kinship. There is multiple reasons why people 
engage.
    Mr. Weber. But would you say that most of them come through 
religious extremism?
    Ms. Khan. No, actually. I would disagree with that and that 
is where it becomes very context specific because you have 
certain areas where, because a family member is involved, 
therefore he or she is able to pull in other family members and 
then network into it, and the reason they get initiated into it 
is not because of ideology but because of kinship ties.
    Now, they might get indoctrinated post-involvement in the 
group but it happens afterwards. So because radicalization or 
the ideological radicalization is not the starting point in all 
of them, it is, again, a very contextual thing. Now----
    Mr. Weber. Okay. Thank you. I want to go over here.
    Ms. Mirahmadi. That is absolutely correct what she said.
    Mr. Weber. What she said.
    Ms. Mirahmadi. I didn't mean it is not the only factor.
    Mr. Weber. No, I got that.
    Ms. Mirahmadi. Ideology and theology is not the only factor 
at all.
    Mr. Weber. And is it Dr.--pronounce your last name. 
Kuehnast--weigh in on that. What is your thought?
    Ms. Kuehnast. On the antidote?
    Mr. Weber. Mm-hmm.
    Ms. Kuehnast. Well, I would say that I agree with Ms. Khan 
here that if we are talking about violent extremism that it is 
maybe one part of the narrative that we should focus in on.
    I do think that there are ways that peacebuilding and 
peacemaking can be a part of the narrative. We can train and 
expose leaders of religious faith to these other narratives 
about peacebuilding. This is something that we have worked on 
at the Institute of Peace for 20 years to bring religious 
leaders together to understand through a peacebuilding lens 
versus a religious lens what it means to listen, to cooperate 
and build a peaceful community.
    Mr. Weber. Do you teach in that process a respect for the 
sanctity of life?
    Ms. Kuehnast. Do we teach--I am not a trainer in that but 
we teach to----
    Mr. Weber. I mean, if you are going to have peace, I mean, 
isn't the ultimate goal not to kill somebody else? That is not 
very peaceful.
    Ms. Kuehnast. Training is really focused on building 
healthy communities, healthy families, and sustaining peaceful 
processes of that community.
    Mr. Weber. Thank you.
    Chairman Royce. We are going to have to go, I think, to Mr. 
Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you very 
much to our witnesses for your testimony. As you know, in many 
areas some of the most extreme organizations, or extremist 
organizations, often provide important social services and act 
as local welfare and education agencies, and I wondered if you 
sort of recognized that that presents special challenges in 
terms of not ensuring a particularly young and vulnerable 
generation of girls and young women become radicalized, if you 
have seen good examples of policy around that, what we should 
do as, you know, in our relationships with these organizations 
or these countries. Have there been some countries that have 
done that successfully and provided good educational 
opportunities and separated it from the kind of radicalization 
that the underlying organization promotes? And I don't know 
if--start with you, Doctor.
    Ms. Mirahmadi. It is a very complicated problem. You see 
now with Egypt, you see in Palestine, in Lebanon, separating 
the social welfare component of these organizations is very 
difficult and, quite frankly, I haven't seen models of it being 
done well.
    One of the recommendations we make quite often is teaching 
the mainstream secular prominent CSOs in disaster humanitarian 
relief in terms of when there is a flood or some other kind of 
natural disaster so it is not just the extremist groups that 
are on the ground but also developing social welfare components 
of their institutions.
    So they need to understand how effective this model is and 
be empowered to do the same. So I think so far that has been 
our best recommendation, especially from activists on the 
ground.
    Mr. Cicilline. Ms. Khan.
    Ms. Khan. Examples--good examples, well, perhaps not that 
many. I think one thing I would like to highlight is that there 
are certainly NGOs who are working on the ground who are trying 
to provide some of the social welfare instead of the extremist 
organizations.
    But in those contexts you have to recognize that they are 
going to be entering a space where there are extremists in 
those communities, which means in certain cases NGOs are very 
restricted in what they can or cannot do because of legal 
constraints. Because if you are engaging with a particular 
community where some of the people, for example, might be a 
family member of someone who has engaged in violence, they 
don't want to have to worry about issues of where it is now you 
are providing material support for terrorism. So there is 
actually--it ends up being a very scary space for certain, at 
least external, NGOs to operate.
    Local NGOs are able to work that better and I think there 
is a need to actually work with a lot of the locals who are 
able to navigate some of those spaces. But in terms of the 
social welfare, I mean, everyone has that arm, right?
    [Foreign language spoken] they are not--they claim they are 
not a terrorist organization but LET is. It is very messy.
    Mr. Cicilline. Yes. Doctor.
    Ms. Kuehnast. I think some of the best examples that I have 
seen actually aren't about the counter narrative. They are 
about skill sets. One group is Peace Through Business that work 
with Afghan and Rwandan women.
    Learning a trade, learning a skill, learning how to 
actually produce something that then you can build into a 
business is an incredibly empowering process. It creates 
inherent leadership in that community and creates a different 
imagination for what is possible for both boys and girls, men 
and women.
    And I think sometimes we can overfocus on the issue and not 
think about other spaces that can counter those kind of 
narratives. A great example is building skills like business 
skills for women.
    Mr. Cicilline. And I don't have a lot of time left and if 
you have thoughts about this that you can't provide today, I 
would love to hear them at some future time. But it seems to me 
the other challenge we face is that women and girls are very 
often seen very active in kind of the grassroots efforts in a 
lot of countries that we are speaking about and the question 
about how we see more women in senior positions of 
responsibility in government and at the negotiating table and, 
you know, in places where their presence will be noticed among 
the group that they are in but also in the larger community and 
what strategies we might support to help advance women in those 
important senior positions would be particularly helpful, I 
think. Yes.
    Ms. Mirahmadi. I think making sure they are on the guest 
list. So I know when government offices are arranging 
conferences or participating, include more female activists and 
speakers, and so eventually when we help elevate their profile 
and other countries elevate their profile they become players.
    And I think that their own governments then also begin to 
recognize them. And remember, a lot of Muslim countries do have 
women leaders and women in politics--Pakistan, in particular, 
Bangladesh. So it isn't a stretch to include women. I think it 
is just the rest of us being conscious of including them in the 
peace processes and especially in counter terrorism and 
security as well.
    Mr. Cicilline. Good suggestion. Thank you. I yield back, 
Mr. Chairman.
    Chairman Royce. Thank you, Mr. Cicilline. We go now to Lois 
Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair, and thank you for 
bringing this issue today. Thank you to the panel. It has been 
very interesting. Malala was here in Washington last year, and 
she is a very courageous young lady and very inspiring.
    But I have a number of questions that I would like to ask 
you. So first of all, I think it is quite obvious that more 
women will be mothers than just leaders, so my first question 
would be, does any of your research show a correlation between 
mothers being educated and having extremist children?
    There was a comment about the importance of the curriculum 
being a certain type of curriculum. I think one of you made 
mention of that, and Pakistan, I think, has 175 million people. 
Is that correct? More than that.
    So I wanted to get your sense of the impact of these kind 
of scholarships we are going to be talking about today because 
I think we all agree it is fair--it is only fair that women get 
at least half.
    But the question I have for you is what do you think the 
impact of the scholarships are and what would you say would be 
some of your top initiatives--some other things that we can do 
in addition to scholarships? Any one of you could start.
    Ms. Mirahmadi. So I am sorry. The question about being 
educated and having extremist kids meaning that if they were 
educated they would not have extremist kids? Okay.
    Ms. Frankel. Yes.
    Ms. Mirahmadi. I presume that is what you meant. But I 
don't know of any studies about actually how many were able to 
decrease the radicalization of their children, but there are 
definitely studies which I cite in my written testimony about 
the impact that educated women will have on preventing the 
radicalization of their children. So it is very, very 
important, and I stress secular and mainstream religious 
education.
    So it is important for them not only to understand, you 
know, the secular sciences and to be educated and knowledgeable 
women but to also understand that when their kid, you know, is 
moving toward a radicalized interpretation of the faith they 
can recognize it and be able to interdict.
    Ms. Frankel. Let me just stop you for 1 second. Are you 
saying that if women are steered toward the wrong kind of 
education it will not have the effect that we would like? In 
other words, if it is not mainstream religious, if it is not 
secular, that it could have a detrimental effect?
    Ms. Mirahmadi. Well, I mean, as I mentioned in my testimony 
about the soft radicalization of women, this is a phenomenon 
that I have described to others that women who are taught a 
very--a deviant or austere or very rigid interpretation of the 
religion, they can pass that on to their children.
    So they won't--they will not be--they will be perpetrators 
and helpers rather than interdictors. So we definitely want to 
understand the quality and the kind of education that they are 
getting. That is definitely important.
    And then the curricula that I mentioned in particular, 
because Humera also mentioned curricula, was that we needed to 
have tolerant peacebuilding curricula like the one that Dr. 
Amina is doing in Lahore, is emphasizing the importance of a 
cross cultural education.
    In fact, former Prime Minister Tony Blair has also talked 
about this--having respect for societal pluralism, respect for 
other denominations, religions and races, that this kind of 
tolerance is an important part of curricula, secular or 
religious.
    Ms. Frankel. Did someone want to comment on the 
effectiveness of merit and need-based scholarships?
    Ms. Khan. Anytime you can get more women educated that is a 
good thing. It helps society. There is nowhere--you know, it 
just helps society and it actually does have--it has secondary 
and tertiary impacts also. Just the benefits are numerous, 
right.
    There is no question about that. I think one thing which 
would really help, or in addition to the scholarships, is if 
part of the scholarship can also require a commitment back into 
the community. So it is not just that they get educated--they 
get the education--but some sort of commitment that they will 
actually serve their communities in particular and, again, that 
will come back to in terms of what are the areas that the 
scholarships are available for, right, and what are we trying 
to actually promote.
    Because you can have women--you know, you can talk about 
you want more women to do--to become teachers but you can also 
have women who will eventually end up in leadership roles or in 
politics or there is different types of topics or subject areas 
that you would emphasize depending on how you would like to in 
the long term channel the empowerment of women.
    Ms. Kuehnast. And I would like to pick up on that idea of 
what I would call ``paying it forward'' in terms of the 
scholarships, that the recipients of the scholarship are also 
committed to giving back in some sort of way to their community 
and providing mentorship to others so that you really spread 
the access of the knowledge of that particular person among 
many.
    I have actually seen it working in action, again, through 
the Peace Through Business. It is a profound way of getting 
these kind of resources stretched over many people but also 
over time. You want this to last a while.
    Ms. Frankel. Thank you. Mr. Chair, would that--these sound 
like very good suggestions. Is that something that this 
committee could entertain as this legislation moves forward?
    Chairman Royce. Absolutely, Ms. Frankel, and remember we 
have a markup following the hearing. Okay.
    Thank you. We are going to go to Tulsa Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. Aloha and good 
morning. Thank you for being here and for speaking so candidly 
about the work that you are doing and the effects that you are 
seeing and also talking about where we can and need to be doing 
more.
    I have three questions I am going to try to ask quickly and 
see if you can try to address them. Just following up on Mr. 
Holding's questions about the necessity of security going 
forward when there is NGO work or work that is still being done 
on the ground, knowing that our military presence from 
Afghanistan is diminishing greatly.
    My second question is with regards to the female engagement 
teams in Afghanistan, in particular, what kind of impacts do 
you think that they have had? And lastly, as you are looking at 
communicating with these different generations of women what 
are some of the different approaches that you are taking, for 
example, with, you know, young girls--girls who are growing up, 
going through high school or young women, as opposed to the 
generation before them of their mothers and grandmothers where, 
you know, as a 16-year-old you might be very active perhaps in 
social media whereas, you know, their mothers or grandmothers 
would view things and be empowered in a completely different 
way.
    Dr. Mirahmadi, I will let you start. Thank you.
    Ms. Mirahmadi. So security going forward, this is going to 
be a difficult problem, especially for U.S.-based NGOs working 
in Afghanistan. So one of the suggestions that we have put in 
our report that you should have on the table is about hiring 
and using local NGOs to facilitate the M&E, monitoring and 
evaluation and implementation, because, as I mentioned, 
Afghans--for Afghans this is business as usual--life will go 
on--and they really need our continued attention and focus on 
building that infrastructure, continuing in the capacity 
building of civil society, and they really would like to see 
those initiatives continue. So----
    Ms. Gabbard. On that, you know, there has been a lot of 
talk and concern about corruption within the government there. 
Is their level of confidence greater in these local NGOs than 
there is in government?
    Ms. Mirahmadi. Absolutely. Absolutely. I mean, it is a 
different dynamic between the local communities and what 
happens in Kabul. So they also have a lot of mistrust of the 
Central Government.
    So I think it is a--there are a lot of--and actually we 
have done a report that lists 100 potential CSOs that are 
partners--potential partners for the United States. We have 
actually vetted these organizations to provide them as possible 
alternative partners, and they do have--I mean, they don't have 
the fiscal good governance and some of the structures that we 
would like to see as an American-based organization, but if we 
build their capacity a bit I am sure we can get there and they 
could be a very valuable resource for our projects going 
forward.
    And then one other thing I would comment on is the 
difference between the youth and the older generations. Of 
course, the older generations are worried about their kids and 
their grandkids. So it is always effective to reach out to them 
in terms of being that first line of defense for their 
children.
    But with young people I find they are very focused on 
empowerment and leadership. So they want to learn from us how 
to be better leaders and how to learn to be leaders in their 
communities and in their societies, whether it is political or 
at the community level.
    So I think empowering them in that way is very important. 
And then Internet safety--teaching them responsible uses of the 
Internet, understanding digital citizenship, understanding that 
what they put out there stays with them forever and that the 
comments that they post and what they allow people to post back 
is relevant too. So those are things that we----
    Ms. Gabbard. Thank you. Dr. Kuehnast, do you have anything 
to add?
    Ms. Kuehnast. I would like to comment on your question 
about the female engagement teams in Afghanistan. About a year 
and a half ago at the U.S. Institute of Peace, we hosted an 
off-the-record discussion with members of the various 
militaries on the FETs and it proved to be very interesting.
    I think overall many who were female engagement team 
members found it a very enriching experience but were 
frustrated that oftentimes their work was not integrated in the 
operations overall.
    And I do remember one Marine saying what is key moving 
forward: These efforts have to be operationally integrated or 
else it becomes a silo. It is an interesting study project but 
it really has to be seen in that command center.
    Ms. Gabbard. Yes. Thank you. That is such an important 
point, just to recognize and to be able to see things in a 
broader way than just beyond the very focused kind of military 
tactical look and see how these relationships are impacted and 
how it really benefits that common objective at the end of the 
day.
    Thank you very much.
    Chairman Royce. We go now to Grace Meng of New York.
    Ms. Meng. Thank you, Mr. Chairman, and thank you, Ranking 
Member Keating and to all of our panelists for being here today 
and the important work that you do.
    I just want to add on to the conversation from before. In 
some areas, extremist organizations also operate as local 
welfare and education providers, leading to increased 
indoctrination of a vulnerable youth population.
    How can the U.S. effectively achieve its goals in areas 
where education is provided by such extremists, and are there 
any successful examples that might serve as models for this? 
And anyone can answer.
    Ms. Kuehnast. I will speak from my experience working in 
international development. Some of the best efforts I saw 
happening in Central Asia where all of this kind of, as you 
say, local welfare was being imported from outside of their 
world and there was great need, of course.
    But I think when we move this kind of effort to community-
driven development so that the communities have access to the 
funding, and it doesn't get caught always in newly-forming 
institutional structures, especially those countries that are 
coming out of conflict. There are not the kind of institutions 
that can really funnel that funding.
    So we need to find mechanisms that are more community based 
that can help get the needs answered as a way to, in one sense, 
counter this kind of local welfare, as you pointed out.
    Ms. Meng. My second question is regarding efforts to 
promote women's education and self-empowerment. I have heard of 
one example where in 2007 the state of Bihar in India began 
providing bicycles to teenage girls to help them get to school 
because their trip was either too far or too costly.
    The number of girls who registered for high school tripled 
in the first 4 years of the program and it was so successful 
that other Indian states started similar programs. An 
unexpected benefit was that it also raised the status of girls 
and their families in their villages.
    All the members of the family could use this bicycle to get 
groceries, run errands, and make the lives of everyone in those 
families better. How do we work more closely with some of these 
local governments and develop initiatives to promote women's 
access to education with local level governments and knowledge 
and at the same time being culturally sensitive?
    Ms. Kuehnast. All right. I will weigh in. Again, that is a 
wonderfully imaginative approach to trying to answer a bigger 
question about accessing education. We need more examples like 
that.
    We need more examples in our own agencies to think outside 
the box, if you will. We sometimes reproduce our own bad ideas. 
As we talk about critical thinking and problem solving we need 
to apply the same and take risks in different ways to approach 
very practical everyday issues with a new lens in mind. That 
is, again, where I think sometimes communities are their best 
asset in terms of that kind of problem solving.
    Ms. Khan. I think I would really like to echo the last 
point Dr. Kuehnast made. If you ask communities how to solve 
their own problems, they actually will come up with answers, 
and the answers they come up with are usually the ones which 
are going to stick the best because they own the solution.
    But in many cases, if we try to define here is your problem 
and here is the solution and you guys should just do it, it 
actually doesn't stay. And so in these communities actually 
getting--using the communities to solve or to come up with 
solutions is actually very effective, and this is a place where 
youth are very effective because they want to engage.
    And if they actually--you know, if they come up with ideas 
and they start to see them being implemented, it gives them a 
greater investment back into the improvement of their own 
societies.
    Ms. Mirahmadi. And actually we did this in Afghanistan so 
we had local development councils that we created to help bring 
the community members together to talk about what initiatives 
they wanted to put forward, and it was extremely successful and 
I don't see why we couldn't do that in other countries as well.
    So it is bringing together the local partners and 
stakeholders and asking them for their input on project ideas 
and then having a democratic mechanism to choose which ones 
will be implemented and then being responsible for the monitor 
and evaluation of its success.
    So I think that having them--a community-based solution and 
having them as part of the development and implementation is 
really important.
    Ms. Meng. Thank you. I yield back.
    Chairman Royce. Thank you. We go to Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and with permission 
I would like to--I would like to yield to my colleague, Mr. 
Sherman, and come back.
    Chairman Royce. Without objection.
    Mr. Sherman. I thank the gentleman from Virginia.
    Mr. Connolly. In fairness, if we could start over Mr. 
Sherman's time, Mr. Chairman. Could we start back at five?
    Chairman Royce. Not to worry.
    Mr. Connolly. Thank you.
    Mr. Sherman. One thing I have been advocating on this 
committee for a long time is that we put our development and 
foreign aid dollars into printing textbooks. First, it is 
helpful to support education.
    Second, it gives us control of the values that underlie the 
message in those textbooks. We would have to be careful. I 
mean, if I was writing the textbooks I might put in the Chapter 
14 great things you would love about Israel.
    I am not sure that the programs you work with would find 
wide acceptance for the book that I would write. A third 
element is corruption. If we are providing free textbooks or 
extremely low-priced textbooks and somebody steals them, who 
are they going to sell them to?
    If we go into a country and are providing those same 
textbooks free to most parents--and also a textbook can be 
marked, and you can put a hologram in it or a code in it and 
trace it so, you know, whereas rice or money or whatever can be 
stolen more easily. To what extent do textbook costs cause 
parents to either not send their kids to school or not send 
their kids to school for as many years as they might otherwise, 
or to send some of their children to school but decide others 
will not go to school?
    What is--and I realize it is different from country to 
country but are textbook costs a barrier to education? Yes, 
Doctor.
    Ms. Mirahmadi. Thank you for the question. I actually love 
the idea of textbooks. So a number of our activists in Pakistan 
especially have asked for textbooks.
    Of course, the content and subject matter of the textbooks 
is very relevant and what we--as you mentioned, what we would 
put in the textbooks. And, unfortunately, I was part of a 
project that was overlooking the textbooks we were sending to 
Afghanistan in the beginning of the war, and you would be 
horrified by what was in the content of the textbooks we 
printed. So they were simply a reproduction of old Afghani 
textbooks--counting Kalashnikovs.
    Mr. Sherman. Kalashnikovs.
    Ms. Mirahmadi. So it is important--the content is 
important. So we would have to--we would have to make sure that 
we were, you know, very clear about what we expected to have in 
that content. But I think it is an extremely wonderful tool, 
especially for existing institutions. As to sending them to 
homes and families, I am not sure about how that would----
    Mr. Sherman. Well, I mean, there are many places in the 
world where the parents have to pay for the textbooks. Do you 
have experience in operating in those countries, and do those 
textbook costs deter parents from sending their kids to school?
    Do--if you don't have--I can go on to the next question if 
there isn't--I don't see anybody answering that--okay. Let me 
go on to the next one.
    Obviously, what we would want to see is a qualified teacher 
teaching a class of 20 or fewer students. We have got very 
limited resources here but we do have new technology.
    Are any of you aware of situations where computer programs, 
lectures, available on Tablet, through the Internet or on disc, 
have been made available to those who don't have traditional 
classroom education available, and do you have any success 
stories or failure stories? Dr. Kuehnast.
    Ms. Kuehnast. I am familiar with some of these new 
approaches to education. The U.S. Institute of Peace has online 
courses on peacebuilding, conflict resolution, looking at----
    Mr. Sherman. Anything in local languages that helps kids 
learn how to read and basic skills?
    Ms. Kuehnast. No, but it helps the teachers.
    Mr. Sherman. Okay.
    Ms. Kuehnast. And it helps teachers prepare and they are 
being translated into key languages. We also have a global 
peacebuilding center focused on----
    Mr. Sherman. I want to squeeze in one more question. My 
proposals to raise billions of dollars in tax revenue have 
insufficient Republican support. We don't have a lot of money.
    Is there anything we are doing in the development and 
education area that you say, hey, that is not the best use of 
funds--maybe those funds could be steered somewhere else? Can 
you identify for us any programs that aren't working or are 
misconceived? Yes, Ms. Khan.
    Ms. Khan. Perhaps this could be something we could include 
in our--in the----
    Mr. Sherman. I look--yes, I would like you all to respond 
for the record to those questions that time did not permit you 
to respond to orally, and I yield back.
    Chairman Royce. We will go now to Mr. Gerry Connolly. But 
first, will the gentleman yield, Mr. Sherman? For one thought 
of a way to do this without tremendous expense would just be to 
take expired textbooks here in the United States that are 
effective texts, ship them back in some of the empty shipping 
containers that you and I have talked about, going back to 
South Asia, but use them and then have an ongoing program to do 
this.
    That is something that could be done at minimal cost. Those 
textbooks otherwise would have to be destroyed here in the 
United States. And yet they are very effective, you know, for 
teaching any number of disciplines. Maybe that is something we 
could work on as we move forward.
    Ms. Mirahmadi. And I have a number of schools you can send 
them to.
    Chairman Royce. There we go. We just have to know who to 
work with. Let us go to Mr. Connolly.
    Mr. Connolly. Thank you so much, Mr. Chairman. The title of 
this hearing is ``Women's Education: Promoting Development, 
Countering Radicalization.'' Is there clear correlative 
evidence, Dr. Mirahmadi, that the education of women helps 
counter radicalization?
    Ms. Mirahmadi. There have been a number of studies which I 
cite to in my written testimony from the OSCE, from Naureen 
Chowdhury Fink and the Center for Global Security, also for the 
Pakistan Center for Peace Studies.
    There are a number of studies about the importance and the 
correlation between women being educated and preventing the 
radicalization of their children. Now, is it a causal link? I 
am not--I can't speak to that. But there are a number of 
studies that talk about the importance of that.
    Mr. Connolly. To what extent does the promise of education 
get dashed on the shoals of other cultural barriers? For 
example, you could have broad-based education in Saudi Arabia 
but they are still not going to drive. You know, there will 
still be blatant discrimination in the workplace. Opportunities 
will be thwarted. You will--you know, your social comportment 
will be highly regulated.
    To what extent does in some ways education either undermine 
that system or get terribly thwarted by cultural norms that 
seem by Western standards to hold women back, to deny them 
opportunity and integration into the broader society?
    Ms. Mirahmadi. Well, I think one of the important points at 
the topic of this discussion was about how they could prevent 
radicalization. So educated women for sure can be the first 
line of defense for their husbands and their children and their 
families.
    So it is very important that they understand the warning 
signs of radicalization and then be empowered with the tools to 
respond. So in that field, in particular, an education is 
vital. It is critical.
    In terms of the larger socio-cultural dynamics, it is 
important to push some of those limits. I think moving into the 
21st century by empowering women and giving them more space--
more public space to express themselves and to be educated, to 
get jobs, to be involved in politics, we are going to push some 
of those social cultural barriers, and I think that is a good 
thing.
    Mr. Connolly. I probably do too but to what extent--I am 
trying to look at ourselves----
    Ms. Mirahmadi. And I believe Pakistani women believe that 
too.
    Mr. Connolly. Yes. But to what extent, and feel free, other 
panelists as well, but to what extent is that a culturally-
bound norm on our part? To what extent are--the very thing you 
just asserted, to what extent is that a Western norm being 
interposed on other cultures? Yes, Ms. Khan.
    Ms. Khan. Education is a human right for all, not based on 
gender. But everyone has a right to education and yes, there 
are cultural barriers to it and cultural constraints in certain 
contexts. But at the same time, it is the right of women to get 
education.
    So we must pursue that no matter what. I think it has been 
mentioned a few times by all of us that there is a role for men 
in making sure that women are able to get their education and 
so when we are coming up against a barrier, right, it is not 
just for women to fight on the behalf of women.
    You also need the support of all of community and all of 
society, which includes the men. Men can actually be some of 
the loudest voices to make sure that women do have access to 
education and all other types of opportunities as well.
    Mr. Connolly. And that is--part two is what I am 
particularly--it seems to me--I would agree with you about 
education, but we also have to add opportunity because 
otherwise what I am focused on is we have a whole educated 
class who can't go anywhere because these other social cultural 
barriers prevent opportunity.
    If you are going to have education you got to have 
opportunity that goes with it. Otherwise, I think you have a 
very volatile, unhappy mix.
    Ms. Khan. Yes. Yes, and I think part of it is also the 
types of education because, you know, we can talk about 
standard primary, secondary, tertiary education. But there is 
also a place for vocational skills and actually skills in terms 
of things like managing a business--how to actually start your 
own business.
    Mr. Connolly. Right.
    Ms. Khan. Actually a skill set which can be used to create 
opportunities, and so that also has to be part of that 
education mix, which is very functional skill building.
    Mr. Connolly. Dr. Kuehnast, did you wish to comment?
    Ms. Kuehnast. I would just say that education is a long-
term investment in long-term change in societies, whether it is 
locally or globally, and it is something that is an investment. 
And so sometimes, as you have pointed out, cultural norms 
create barriers for opportunities.
    But it is a long-term effort to change those norms. I think 
we see that in the last century the kinds of norms that have 
changed as a result of women's education including, in our own 
country 100 years ago this year, the right to vote.
    Mr. Connolly. Yes. We don't want to have a whole bunch of 
Ph.D.s with nothing to do. Thank you so much for being here 
today. Thank you, Mr. Chairman.
    Chairman Royce. Thank you very much, Mr. Connolly. I thank 
the members.
    We are adjourning this hearing but we want to really 
express our appreciation, Mr. Keating and I, to our three 
witnesses who travelled some distance to be with us today and 
we very much appreciate their testimony.
    [Whereupon, at 11:56 a.m. the hearing was adjourned.]
    Chairman Royce. So the hearing is adjourned, and now we are 
going to call the committee to order for a different purpose. 
We will give our witnesses 1 minute to get their paperwork 
together.
    The committee will come to order. Pursuant to notice, we 
meet today to mark up H.R. 3583, the Malala Yousafzai 
Scholarship Act.
    Without objection, all members may have 5 days to submit 
statements for the record and to put in any extraneous 
materials on this bill in for the record, and I now call up the 
bill, H.R. 3583. The clerk will report the bill.
    Ms. Marter. H.R. 3583, To expand the number of scholarships 
available to Pakistani women under the Merit and Needs-Based 
Scholarship Program.
    Chairman Royce. Without objection, the bill is considered 
read.
    To help expedite our consideration, I am going to go ahead 
and call up the bipartisan amendments previously sent to your 
offices and before we proceed to the opening statements so that 
members may speak once on the entire package.
    So I ask unanimous consent that the following amendments, 
which members have before them, be considered en bloc--the 
bipartisan amendment, Number 42, in the nature of a substitute 
offered by Ms. Ros-Lehtinen, the author of this bill, and the 
Connolly Amendment, Number 100. Without objection, so ordered.
    [The information referred to follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. I now recognize myself to speak on these 
items.
    We just heard today how even a modest investment in 
educating women and girls in the developing world and in areas 
beset by poverty and radicalism in particular, can pay long-
term dividends that help stabilize societies, promote market-
based economic growth, and advance U.S. national security 
objectives. This is why H.R. 3583 is so important.
    I want to thank Chairman Emeritus Ros-Lehtinen for her 
leadership on this issue. I have for years traveled to South 
Asia and expressed concern about the appalling state of 
education in places like Afghanistan and Pakistan and the 
subsequent rise, particularly in these Deobindi madrasas that 
prey upon the disenfranchised, that breed radicalism, and have 
been so difficult to close.
    There are 600 of them in particular that are churning out a 
new graduating class every year that is destabilizing the 
region and a threat, frankly, to the hopes and aspirations of 
the people in Pakistan and Afghanistan.
    The situation for women in areas where access to education 
is actively suppressed is particularly grim. In Pakistan's 
North-West Frontier Province and in Balochistan, for example, 
literacy among women is between just 3 and 8 percent.
    I myself had the opportunity to tour a very effective 
school up in the North-West Frontier some years ago. But on my 
following trip back I had found that the Taliban had targeted 
it and destroyed it. It is therefore fitting that the bill 
before us would be named for Malala Yousafzai, for her, because 
at the age of 15 she dared, of course, to defy the Taliban.
    She was brutally assaulted for her efforts and ultimately 
inspired a generation of women and girls to demand their 
fundamental right to be educated. H.R. 3583 requires USAID to 
award at least half of the scholarships made available through 
the Merit and Needs-Based Scholarship Program in Pakistan, 
which the United States supports, to women.
    It simply provides support and policy guidance. That is the 
intent of this bill. I am particularly pleased that the 
substitute amendment contains language emphasizing the 
importance of consulting with and leveraging investments by the 
private sector and Pakistani diaspora communities in the United 
States, who themselves put so much of their own hard-earned 
money in to support education both at the medical school level 
and at other institutions of learning across Pakistan.
    Tapping into this vast pool of expertise and resources will 
prove invaluable, and I thank the ranking member and 
Subcommittee Chairman Ros-Lehtinen both for working with me to 
press this point and I urge members to support the amended bill 
and recognize the ranking member, Mr. Eliot Engel of New York, 
for his remarks.
    Mr. Engel. Thank you very much, Mr. Chairman, and I concur 
with everything that you said. I am very pleased that we had 
this important hearing this morning and I am very proud of the 
role that our colleague, Mr. Keating, played, first, in 
bringing these hearings and then in participating in them. And 
thank you, Mr. Chairman, for your leadership.
    Six hundred million women around the world are illiterate, 
nearly twice the number of men, and in rural Pakistan only one-
third of women can read. These scholarships are so important. 
It is so important for the United States to put our money where 
our mouth is in helping women in Pakistan.
    The overall gender disparity is even more pronounced in 
higher education. Only two countries of 130 measured by the 
2013 Millennium Development Goals report achieved gender parity 
in the area and these disparities are very costly for women.
    They marginalize them politically, reduce their employment 
opportunities, and increase their vulnerability. President 
Obama has said that if a country is educating its girls, if 
women have equal rights, that country is going to move forward. 
But if women are oppressed and abused and illiterate they are 
going to fall behind, and studies show that he is correct.
    So every year of primary school boosts a girl's future 
wages by 10 to 20 percent, and every year of secondary school 
increases that earning potential by 15 to 25 percent.
    The World Bank's top economist has said that financing 
women's education yields the highest rate of return of any 
investment in the developing world. These facts alone justify 
the efforts of the U.S. to promote female education worldwide.
    A recent IMF study also found that if females were working 
in the same proportion as men we would see a 34-percent 
increase in the gross domestic product of Egypt, 27 percent in 
India, 9 percent in Japan, and even a 5-percent increase in the 
United States.
    There is another compelling reason for the U.S. to support 
female education around the world. Educated women and girls are 
proven to be some of the most powerful weapons in the fight 
against violent extremism.
    The Taliban--we all know the story--exposed their fear of 
educated girls when they tried to silence Malala Yousafzai. 
Malala's incredible example is a reminder that females are 
ready to lead all over the world when they have the opportunity 
to go to school.
    When girls and women are educated they are better able to 
combat extremism in their roles as mothers, community members, 
teachers and activists and, simply put, the battle for hearts 
and minds cannot be won without the participation of educated 
women and girls.
    That is why this bill that we are marking up today is so 
important. It is clear that there are numerous tangible 
benefits to educating women and girls. But we must also 
remember that the right to an education is a basic fundamental 
human right enshrined in the Universal Declaration of Human 
Rights.
    And yet, too many young girls are still stuck working at 
home during the school day. Too many are still being forced out 
of school and into early marriages.
    So we must ensure that promoting education for girls and 
women abroad remains a priority for the U.S. As remarkable 
young women like Malala have demonstrated, when education 
empowers women to shape their own destinies extremism is 
doomed.
    So I am very delighted to support this legislation and 
support the amendments that are also being brought forth to 
perfect this legislation, and I am glad once again that we are 
doing so in a bipartisan way.
    I thank Chairman Royce and everyone who has worked so hard 
on this legislation and make it a reality. Thank you. I yield 
back.
    Chairman Royce. Thank you, and we want to thank the ranking 
member for his work on this legislation and amendments into the 
bill. Do any other members seek recognition to speak on the 
pending items?
    Mr. Connolly. Mr. Chairman.
    Chairman Royce. Ms. Ros-Lehtinen, then we will go to Mr. 
Connolly and then to Mr. Cicilline.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Thank you so very much for holding this markup on this 
important issue. H.R. 3583 is a bipartisan measure and the 
House companion of Senate Bill 120, sponsored by Senator Boxer.
    This bill will mandate that USAID award at least 50 percent 
of scholarships to women in Pakistan under the Merit and Needs-
Based Scholarship Program from 2014 to 2016.
    I would also like to thank you, Mr. Chairman, as well as my 
good friend, Mr. Engel, for making the bill stronger, for 
making the bill more efficient, and I also would like to offer 
my support to the amendment offered by my good friend.
    And I hear that he was a former Senate staffer--I am not 
sure if that is true--Mr. Connolly from Virginia, requiring 
USAID to look at the number of women participants who have 
dropped out of the program due to retaliation.
    This issue is very near and dear to my heart. As one of the 
few women on this committee and someone with a background in 
education, having been a Florida-certified teacher, I know 
firsthand the importance of education for our youth.
    We have seen that greater access to education for women 
leads to increased respect for human rights, a rise in 
prosperity and well-being, and a more peaceful and stable 
society.
    Stories like those of Malala, who defied the brutal Taliban 
and became an inspiration for young people worldwide, show that 
education is the most important factor in empowering young 
girls to become successful members of society and protecting 
them from the ignorance that enables abuse and radicalization.
    Thank you so very much, Mr. Chairman, for this markup. 
Thank you, Mr. Engel, as well. Thank you, sirs.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen, I thank Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and I want to thank 
you and the ranking member for your leadership on this issue 
and for the hearing we just had--a very thoughtful hearing.
    I also want to thank my good friend, Ileana Ros-Lehtinen, 
for her leadership on this issue and her commitment, and I am 
particularly impressed with her perspicacity, Mr. Chairman, 
that she actually knows my background that I was once a--I was 
once a very important person.
    I was a staff member of the Senate Foreign Relations 
Committee. But I do want to, seriously, thank all involved in 
this bill.
    I think it is really important, as we just heard in this 
hearing, education is transformative. It is the key to changing 
the status of women. It is the key to providing opportunity, 
and we need to be all in when it comes to education.
    So I thank my friend for accepting a slight modification in 
the reporting requirement to capture data about women who have 
been forced out of education because of retaliation, and I 
enthusiastically support the bill in front of us and, again, I 
thank the chair and ranking member for their leadership. I 
yield back.
    Chairman Royce. Mr. Cicilline, you were seeking time.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I would like to begin by thanking you and Ranking Member 
Engel for convening a markup on this important issue and for 
the hearing we just had, and for continuing to highlight the 
pressing issues of educational access, opportunity, and 
equality.
    I also want to thank Congresswoman Ros-Lehtinen, our chair 
emeritus, for sponsoring the legislation that we are 
considering today and also thank and acknowledge my colleague, 
Congressman Keating, for his work on this issue.
    Every child deserves the opportunity to obtain a quality 
education in the best environment possible and to be given the 
opportunity to achieve their full potential. As we work in the 
United States to help provide support for qualified teachers, 
better technology in the classrooms, safe school literacy 
programs, and greater community engagement, we must not forget 
that we belong to a global economy.
    Educated children and young people help drive the future of 
our economy and the future of our world.
    Unfortunately, as we know, girls and women are too often 
left behind. And although we are making progress here in 
closing the achievement gap in the United States, girls and 
women in many parts of the world still face significant 
barriers to education.
    In particular today, we honor Malala, who faced threats 
from the Taliban and ultimately a nearly deadly attack, in her 
relentless pursuit of an education. We must do everything we 
can to increase opportunities available to women and girls, 
especially in countries that are struggling to achieve peace 
and democracy.
    Undoubtedly, these countries will benefit from their civic 
involvement and so will the world, and so I thank everyone who 
has worked so hard on this and I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    Does Ms. Frankel have an additional second-degree 
amendment?
    Ms. Frankel. Yes. Thank you, Mr. Chairman. I think there is 
an amendment in the--I am sorry.
    Chairman Royce. There is. There is, and the clerk will 
report the amendment.
    Ms. Marter. Amendment to the amendment in the nature of a 
substitute to H.R. 3583 offered by Ms. Frankel of Florida. At 
the proper place in the bill insert: ``It is the sense of 
Congress that recipients of these scholarships commit to 
improving their local communities.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Chairman Royce. And the Chair recognizes the author for 5 
minutes to explain the amendment.
    Ms. Frankel. Thank you very much, Mr. Chairman.
    I probably would have liked do something stronger but I 
think this will get the point across. We heard from our very 
distinguished and articulate panel this morning that I think 
for each of them it was their opinion that these scholarships 
could be more effective if the recipients would pay it forward 
to their communities and with service and mentoring, and I 
think today, where our resources are so much in demand and so 
important and so scarce, that we have the most effective use of 
them.
    So that is why I offer this amendment, and I hope that 
perhaps at a later date, and in a bipartisan manner, we can 
follow up with USAID with a letter or some conversations on how 
they could implement this.
    Chairman Royce. I think that sounds very appropriate.
    Do any other members seek recognition to speak on the 
amendment? Hearing no further requests for recognition, the 
question occurs on the amendment. All those in favor say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Ms. Frankel. Mr. Chair, may I speak on behalf of the----
    Chairman Royce. The overall underlying bill?
    Ms. Frankel. Yes.
    Chairman Royce. Very briefly.
    Ms. Frankel. Yes.
    Chairman Royce. All right. Then the gentlelady is granted 
time.
    Ms. Frankel. I will be very brief, just say thank you. I 
want to thank you, the ranking member, of course, Ms. Ros-
Lehtinen, who I work very closely with, our great--one of our 
great leaders from Florida, and I am proud to be a co-sponsor 
of this legislation.
    And just as it has been repeated again, this legislation is 
named after a young lady who is inspiring to all of us, and I 
hope that these scholarships will bring us many more Malalas 
into society. Thank you, Mr. Chair.
    Chairman Royce. Well put, Ms. Frankel.
    Okay. Are there any other members besides Ms. Frankel that 
want to speak on this amendment? Hearing no further requests 
for recognition, the question occurs on the en bloc amendment. 
All those in favor, say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it in the en 
bloc amendments. Ros-Lehtinen 42 and Connolly 100 and the 
Frankel amendment are agreed to.
    The question now occurs on agreeing to House H.R. 3583 as 
amended. All those in favor, say aye.
    [Chorus of ayes.]
    All those opposed, no.
    [No response.]
    In the opinion of the Chair, the ayes have it and the bill 
as amended is agreed to, and without objection 3583 as amended 
is ordered favorably reported as a single amendment in the 
nature of a substitute.
    Staff is directed to make any technical and conforming 
changes and, members, that concludes our business for today, 
and I want to thank Ranking Member Engel and all of our 
committee members for their contributions and assistance to 
this legislation.
    The committee is adjourned.
    [Whereupon, at 12:19 p.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Record

                                 <all>

</pre></body></html>
